<html>
<title> - U.S. POLICY IN SYRIA POST-ISIS</title>
<body><pre>[Senate Hearing 115-793]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-793

                    U.S. POLICY IN SYRIA POST-ISIS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                             SECOND SESSION
                             
                               __________

                           JANUARY 11, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-361 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Satterfield, Hon. David, Acting Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State, Washington, DC.     4
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Responses of Hon. David Satterfield to Questions Submitted by 
  Senator Edward J. Markey.......................................    35
Letter to Hon. Rex Tillerson and Hon. James Mattis from Senator 
  Tim Kaine......................................................    37


                             (iii)        

 
                     U.S. POLICY IN SYRIA POST-ISIS

                              ----------                              


                       THURSDAY, JANUARY 11, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Cardin, 
Menendez, Shaheen, Coons, Udall, Murphy, Kaine, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We thank our distinguished witness for being with us today. 
We regret the Defense Department was unable to send a witness.
    This is the committee's second hearing of the Congress on 
the Syrian conflict, but it is an issue that has been raised 
during many of our other meetings.
    To date, more than 400,000 people have been killed in the 
Syrian conflict. More than 12 million people, roughly half of 
all Syrians, are displaced. And the Assad regime bears 
overwhelming responsibility for this destruction and extremism 
it has spawned.
    However, none of this would have been possible without the 
support of Iran and Russia, both of which intervened on Assad's 
behalf to extend influence in the region and counter the U.S. 
and its partners. With the support of the U.S. and coalition 
partners, the Syrian Democratic Forces succeeded in sweeping 
ISIS out of the capital of Raqqa in October. Of course, despite 
losing much of its territory in Syria and Iraq, ISIS remains a 
major threat. And there is also the ongoing danger posed by Al 
Qaeda Syrian affiliates, which maintain significant influence 
in opposition-controlled areas.
    So it is worth highlighting two recent developments.
    First, the U.S., Russia, and Jordan signed a memorandum of 
principles on November 8th maintaining the administrative 
arrangements in opposition-held areas in southwest Syria. Yet 
Iran and its proxies have deepened their foothold in southern 
Syria, potentially exacerbating the conflict's sectarian nature 
and risking further instability by threatening our ally, 
Israel.
    Second, for the past 2 weeks, the Assad regime has pummeled 
Idlib and the Damascus suburb of Eastern Ghouta, which are the 
so-called de-escalation zones. These attacks have killed at 
least dozens of civilians and displaced tens of thousands so 
far.
    I hope Ambassador Satterfield will provide details of what 
the U.S. is doing to counter Iran's activities in southern 
Syria and assess the current prospects for resolving the Syrian 
civil war diplomatically.
    With that, I will ask our distinguished ranking member, Ben 
Cardin, and my friend, if he wishes to make any opening 
comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. And thank you for 
calling this hearing on the U.S. strategy in Syria after ISIS. 
We could not have a more distinguished witness before us.
    Mr. Satterfield, it is wonderful to have you here. We look 
forward to our discussion today.
    There are many issues involving Syria for which this 
committee has primary responsibility and oversight. The use of 
force, the fact that we are using a 2001 AUMF, many of us 
question whether that really applies to ISIS, but what happens 
after ISIS is defeated? Where is the authorization to maintain 
U.S. troops in Syria?
    We see a rapid increase in the number of U.S. troops. I 
believe the number now is close to 2,000. At least it has been 
reported about that.
    What is the role for U.S. development assistance working 
with other countries? As we all know, there is no military-only 
solution here. How will American diplomacy play out?
    What is Russia's role here? In the future, will it be 
effective in preventing Mr. Assad from being held accountable 
for his war crimes?
    Where is our concern about Iran and developing a land 
bridge between Tehran and Beirut, which certainly affects 
Israel's security?
    On each of these issues, the Trump administration appears 
to view Syria through a military lens, making decisions on 
troop levels and military missions in a policy vacuum.
    For example, at a Pentagon press briefing last year, the 
American public was informed that the United States will 
sustain a conditions-based military presence in Syria after the 
defeat of ISIS. However, the administration has provided no 
information to Congress or to the American people about the 
conditions under which U.S. forces will leave Syria. Are those 
conditions political or military?
    I hope to gain insight into this issue during the hearing 
today, because our young men and women in uniform and their 
families deserve to be fully informed as to what they are 
fighting for and when the fight will be over.
    I am deeply disappointed, and I share the chairman's 
concern, that the Department of Defense declined this 
committee's invitation to testify. This committee has 
jurisdiction over the authorization for the use of military 
force and has already spent significant time debating whether 
the 2001 AUMF covers successor entities like ISIS, given that 
the authorization drafted almost two decades ago was intended 
to provide authority to target Al Qaeda in Afghanistan.
    Now the administration is arguing that even after ISIS is 
defeated, our forces will still remain in Syria to make sure 
that ISIS cannot return. At the same time, U.S. forces have 
significantly increased without any public explanation.
    Considered together, the notion that the U.S. forces must 
stay in Syria to mitigate against ISIS's return while 
simultaneously ramping up U.S. forces seems like the prelude to 
another forever-war with no congressional authorization.
    If we have learned anything from the experiences in the 
last decade, it is that the military fight is not even half the 
battle. Long-term, sustainable ends to conflicts demand 
political agreements, international donors, stabilization 
activities, reconciliation initiatives, development expertise, 
accountability of local leadership, and, above all, patience, 
constant diplomatic and political engagement.
    There is no sustainable solution in Syria, even after ISIS 
is defeated, without a long-term political solution.
    Now the people of Syria, so many of whom risked their lives 
and livelihoods to challenge the Assad regime, are forced to 
look to Sochi and Astana for help, rather than Washington and 
Geneva. This is yet another arena where the Trump 
administration is willingly ceding ground and influence to 
Russia.
    I hope the report I released yesterday on Russia's 
challenges to democracy and egregious tactics it uses to 
destabilize other countries is not lost on those committed to a 
stable, prosperous Middle East. Working through Moscow, we only 
bring further instability, more malign Iranian influence, 
increased human suffering, and the same old top-down 
corruption.
    Meanwhile, Russia is enabling Iran and Iran's militia to 
make themselves at home in Syria and setting the stage to 
exploit lucrative reconstruction contracts. Russia's President, 
Vladimir Putin, the man who ensured Bashar al-Assad's survival, 
is flying around the Middle East completing deals for base 
access and weapons sales.
    With the United States absent from the scene, governments 
across the region are rolling out the red carpet for Mr. Putin. 
This is not a situation that benefits the United States or the 
people of the region who want to look to the West but are 
compelled to look East.
    So I hope, Mr. Chairman, that today's hearing will help us 
clarify some of these points so we have a better understanding 
of a winnable strategy in Syria.
    The Chairman. Thank you. It is rare that I would make 
comments after yours. I will say that there is a lot of 
progress being made on the AUMF, and I think we are going to be 
in a place really soon to have a markup. And we are doing it in 
a way to engender support and input from Members on both sides 
of the aisle.
    As it relates to what has happened in Syria, to me, after 
watching our people in action, I think what we saw here was a 
seamless handoff between one administration to another. 
Obviously, the generals were given a little more flexibility 
with the new administration. But what I saw was a seamless 
handoff where we were very successful in doing away with the 
caliphate.
    So to me, thus far, as it relates to ISIS, this has been 
something that has been successful. Now we are left with a 
country that we have to figure out how to deal with.
    I want to thank the Ambassador for being with us today. He 
is the Acting Assistant Secretary of State for Near Eastern 
Affairs, Ambassador David Satterfield. He is one of our most 
distinguished diplomats. He most recently served as director 
general of the Multinational Force and Observers in the Sinai 
Peninsula and previously served as U.S. Ambassador to Lebanon.
    We thank you so much for being here. We look forward to 
your testimony and, I know, vigorous questions.
    Thank you so much.

     STATEMENT OF HON. DAVID SATTERFIELD, ACTING ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Satterfield. Thank you very much, Mr. Chairman, 
Ranking Member Cardin, and members of the committee. I 
appreciate the opportunity to testify today.
    We have made significant progress since 2014 when ISIS 
first emerged, swept across Iraq and Syria that summer, 
inflicted suffering on thousands of civilians in the region 
with impact far beyond.
    However, despite the advances made, our job is not yet 
done. We remain focused on the enduring defeat of ISIS and 
other terrorist organizations; countering Iranian influence and 
malign behaviors; preventing the use of chemical weapons; 
ensuring the safety of Syria's neighbors; and, ultimately, 
resolving the Syrian conflict and humanitarian crisis through 
the de-escalation of violence and a political resolution. And 
there must be a political transformation and resolution that is 
in accordance with U.N. Security Council Resolution 2254.
    As of today, coalition-backed efforts have liberated over 
98 percent of the territory previously controlled by ISIS, with 
over 7.5 million people now free from ISIS domination in Iraq 
and in Syria.
    While Russia may deem and announce that the fight against 
ISIS in Syria is over, the U.S. and our coalition partners do 
not regard this as a finished effort. The U.S. is committed to 
the total and enduring defeat of ISIS, Al Qaeda, other 
terrorist groups in Syria and the region, ensuring that they 
cannot regenerate and return.
    Thanks to the generosity of the Congress and the American 
people, the U.S. has provided nearly $7.5 billion in 
humanitarian assistance since the start of the Syrian crisis, 
about $1.5 billion over the last year. Now, this critical aid 
assists at least 4 million Syrians in need every month inside 
that country.
    In eastern Syria, with support from our colleagues in the 
Department of Defense, the State Department and USAID lead 
recovery efforts designed to help consolidate our military 
gains, provide lifesaving assistance to conflict-afflicted 
civilians, and stabilize the liberated areas.
    As this committee well knows, unlike in Iraq, we do not 
have a trusted government partner to work with. We are not 
working with, and we will not work with, the Assad regime. 
Until there is a credible political process--and by 
``credible,'' we mean supported by the Syrian people--that can 
lead to a government chosen by the Syrian people, without Assad 
at its helm at the end of the process, the U.S. and our allies 
will not support large-scale efforts to reconstruct Syria.
    On July 9th, over 6 months ago, the U.S., Jordan, and 
Russia made an arrangement, the memorandum of principles in its 
initial form, to reduce violence in southwest Syria.
    On November 8th, the U.S., Russia, and Jordan signed a 
formal memorandum, codifying principles that built on and 
strengthened this earlier effort. This memorandum further 
defines our efforts and, most importantly, enshrines the 
commitment of the U.S., Russia, and Jordan that non-Syrian 
foreign fighters, including Iranian and Iranian proxy forces--
Hezbollah--must withdraw from areas within the ceasefire lines 
delineated by this agreement.
    On November 11th, President Trump and President Putin 
issued a joint statement on Syria in Da Nang, Vietnam. They 
endorsed this memorandum of principles, and they reaffirmed the 
U.S. and Russian commitment to a pluralistic and free Syria. 
They also reaffirmed their commitment to Syria's sovereignty, 
unity, independence, territorial integrity, and nonsectarian 
character, and they urged all Syrian parties to participate 
genuinely actively in the Geneva political process.
    On November 29th, Russia had to coerce the Syrian regime to 
attend meetings in Geneva. The opposition, however, came 
prepared and ready to discuss matters.
    All of these efforts are fully in line with the 
implementation of U.N. Security Council Resolution 2254, which 
calls for a new Syrian constitution and for parliamentary and 
presidential elections under U.N. supervision, in which all 
Syrians, including those displaced outside Syrian borders, can 
participate.
    A stable Syria absolutely requires the departure of 
President Assad and his regime. They have inflicted suffering 
and countless deaths on the Syrian people, including use of 
chemical weapons. This regime is a magnet for terror. It is 
incapable of democratically leading the whole of Syria.
    We, our allies, have come to Russia with a path toward a 
Syrian political transition, toward a political solution, on 
many occasions. And we call on Russia again today to pressure 
the regime to work seriously toward a political resolution to 
this conflict.
    Thank you, Mr. Chairman. I am welcome to take your 
questions.
    [The prepared statement of Ambassador Satterfield follows:]

         Prepared Statement of Ambassador David M. Satterfield

    Chairman Corker, Ranking Member Cardin, distinguished Members of 
the Committee, thank you for inviting me to testify. We have made 
significant progress since 2014, when ISIS first emerged, sweeping 
across Iraq and Syria, inflicting suffering on thousands of civilians 
in the region and beyond. However, our job is not done, and we remain 
focused on defeating ISIS and other terrorist organizations, countering 
Iranian influence, preventing the use of chemical weapons, ensuring the 
safety of Syria's neighbors, and ultimately resolving the Syrian 
conflict and humanitarian crisis through the de-escalation of violence 
and a political resolution in line with U.N. Security Council 
Resolution 2254.
    This administration is making great strides towards the enduring 
defeat of ISIS.
    On December 9, Prime Minister Abadi declared the territorial defeat 
of ISIS in Iraq, and although Coalition and Coalition-backed forces are 
still fighting ISIS in Syria, we have made significant progress against 
the terrorist organization's control of territory. Coalition-backed 
efforts have liberated over 98 percent of territory previously 
controlled by the terrorist organization, and now, over seven-and-a-
half million people are free from ISIS terror in Iraq and Syria.
    While Russia may consider the fight against ISIS in Syria over, the 
United States and our Coalition partners do not. ISIS' loss of physical 
control over towns in Syria and Iraq does not mean the end of ISIS, nor 
does it signal the end of the coalition. Hard work remains to ensure 
ISIS' enduring defeat. We will continue to root out--and destroy--the 
remaining pockets of ISIS and other terrorist groups that threaten our 
homeland and our allies. The United States is committed to the total 
and enduring defeat of ISIS, al Qa'ida, and other terrorist groups in 
Syria and the region, ensuring that they cannot return.
    While defeating ISIS remains the reason we need to stay in Syria, 
our continued presence presents additional benefits. A premature U.S. 
departure from Syria would enable ISIS to return, place the U.S. 
strategy in Iraq at risk, increase the risk to Syria's neighbors, and 
enable Iran to expand its malign influence throughout the region, 
especially to threaten Israel through Iranian backed proxies like 
Hezbollah. Our presence enables us to consolidate gains, stabilize 
liberated areas, alleviate human suffering, prevent ISIS resurgence, 
and help enable diplomatic efforts to resolve the conflict.
    In eastern Syria, the State Department and USAID-led early recovery 
efforts are designed to help consolidate military gains, provide life-
saving assistance to conflict-affected Syrians, and stabilize liberated 
areas. With support from colleagues from the Department of Defense, 
State Department and USAID programs are addressing humanitarian needs, 
removing ISIS-placed mines and improvised explosive devices, supporting 
local early recovery efforts and the restoration of essential services, 
helping ensure the lasting defeat of ISIS or other extremists, and 
setting conditions conducive to the voluntary return of displaced 
Syrians.
    As this Committee knows, Syria faces more challenges than Iraq when 
it comes to stabilizing areas liberated from ISIS. Unlike in Iraq, we 
do not have a trusted government partner to work with in Syria; we are 
not working and will not work with or through the Assad regime. Until 
there is a credible political process that can lead to a government 
chosen by the Syrian people--without Assad at its helm--the United 
States and our allies will withhold reconstruction assistance to 
regime-held areas.
    In Syria, our humanitarian interventions save lives while our 
stabilization efforts seek to address locally identified priorities in 
areas liberated from ISIS:, including clearance of explosive remnants 
of war, to include thousands of ISIS-laid IEDs, and restoration of 
essential services and livelihoods. That means re-establishing power 
and water services, restoring healthcare facilities, and refurbishing 
schools. State Department and USAID personnel on the ground are working 
with a variety of local Syrian partners in pursuit of these efforts to 
enable the safe and voluntary return of Syrians to their homes in the 
hope that these communities can return to normal life after ISIS.
    The amount of improvised explosive devises in Raqqa city is 
unprecedented. U.S.funded de-mining teams work with Raqqa residents 
trained to remove explosive remnants of war and improvised explosive 
devices from critical infrastructure in priority areas of the city, 
while rubble removal teams clear streets. These efforts have allowed 
water-pumping stations to return to service and schools to re-open, and 
have paved the way for follow-on stabilization activities. 
Concurrently, we have supported 110 Syrians in demining training, which 
will bolster the local capability to support recovery efforts. Because 
of that work, tens of thousands of civilians have returned to Raqqa 
already to initiate the city's recovery from ISIS.
    Thanks to the generosity of Congress and the American people, the 
United States provided more than $1.5 billion in FY 2017 in 
humanitarian assistance to refugees who fled their countries and those 
displaced internally by the conflicts in Syria. This funding brings 
total U.S. humanitarian assistance supporting Syrians incountry and 
around the region to nearly $7.5 billion since the start of the Syria 
crisis. This aid helps at least 4 million Syrians in need every month 
inside Syria.
    On July 9, over six months ago, the United States, Jordan, and 
Russia made an arrangement to reduce violence in southwest Syria. This 
ceasefire effort has largely held, resulting in a significant reduction 
in violence--a necessary condition to increase deliveries of 
humanitarian assistance. On November 8, the United States, Russia, and 
Jordan signed a Memorandum of Principles (MOP) in Amman, Jordan, which 
built on and strengthened this existing ceasefire. This Memorandum 
further defines three principles central to this effort. First, the MOP 
gives greater definition to the rules and mechanisms to monitor and 
strengthen the ceasefire and related efforts like humanitarian 
assistance, which are essential to its success. Second, the MOP 
reflects the trilateral commitment that existing governance and 
administrative arrangements in opposition-held territory will be 
maintained during the transitional phase, essential to complement a 
future Syrian political transition. Third and most importantly, the MOP 
enshrines the commitment of the United States, Russia, and Jordan that 
non-Syrian foreign forces, including Iranian and Iranian proxy forces, 
such as Hezbollah, must withdraw from areas within the ceasefire lines. 
This last principle is key to determining whether we can work with 
Russia to deescalate violence in Syria and find a solution to the 
conflict that honors the will of the Syrian people.
    But, this third requirement is meant not only to test Russia, but 
also to diminish the influence of Iran and its proxies in Syria and 
protect the borders of our allies, Israel and Jordan. We seek to not 
only diminish Iranian foreign influence in Syria generally, but to 
protect our allies from the very real threat Hezbollah poses in 
southwest Syria to our allies.
    On November 11, President Trump and President Putin issued a Joint 
Statement on the margins of APEC in Da Nang, Vietnam, endorsing this 
MOP and affirming both the U.S. and Russian commitment to U.N. Security 
Resolution 2254, to ensure a unified, pluralistic, and free Syria. The 
Presidents affirmed their commitment to Syria's sovereignty, unity, 
independence, territorial integrity, and non-sectarian character, as 
defined in UNSCR 2254, and urged all Syrian parties to participate 
actively in the Geneva political process and to support efforts to 
ensure its success. Russia, as a backer of the Assad regime and a 
permanent member of the U.N. Security Council, bears the responsibility 
to uphold Putin's commitments.
    On November 29, U.N.-led negotiations in Geneva restarted for the 
first time since July with a reformed Syrian opposition representation. 
Over two weeks, Syrian opposition and United Nations representatives 
tackled core issues. While Russia had to coerce the Syrian regime to 
attend the meetings, the opposition came prepared and ready to 
contribute. Constructive participation by the Syrian opposition 
delegation contrasted starkly to the obstructionism and procrastination 
of the Syrian regime delegation. We call on the regime's main 
supporter, Russia, to pressure the regime to work seriously toward a 
political resolution to this conflict or face continued isolation and 
instability indefinitely in Syria.
    In the end, these efforts are all in support of full implementation 
of U.N. Security Council Resolution 2254, which calls for a new Syrian 
constitution and U.N.-monitored elections--elections in which all 
Syrians, including the 5.4 million refugees in the Syrian diaspora, can 
vote and have their voices heard.
    We believe a stable Syria will require new leadership in Damascus 
with the departure of Bashar al-Assad and his family, who have 
inflicted suffering and countless deaths, including the heinous use of 
chemical weapons, including sarin gas, against their own people. The 
United States strongly condemns the use of chemical weapons by anyone, 
anywhere, at any time, whether by States or nonState actors. We will 
continue to press for accountability for the use of chemical weapons by 
anyone through all appropriate means, including through the 
Organization for the Prohibition of Chemical Weapons and the United 
Nations Security Council.
    A meaningful and genuine political transition in Syria would 
provide better lives for the Syrian people and an end to the brutal 47-
year dictatorship of the Assad family. Bashar al-Assad is a magnet for 
terrorism, and is incapable of democratically leading the whole of 
Syria. Instability, violence, and displacement will only flourish under 
his regime. To ensure a peaceful departure of power, it can only occur 
as part of a Syrian-led political process--one that allows the entirety 
of the Syrian people, including the millions displaced by this horrific 
conflict, to determine their future free from threat, intimidation, and 
all foreign interference. The United States and our allies have come to 
Russia with a path toward a Syrian political solution many times. 
Because of its influence on the Syrian regime, Russia must join the 
international community and support this way forward to end the 
conflict in Syria.
    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, Syria is complicated landscape with multiple stakeholders in 
and outside its borders, but our policy is very clear. In Syria, we are 
working to defeat ISIS, de-escalate violence, and support a political 
resolution through U.N.-led talks that lead to free and fair elections 
as stipulated in UNSCR 2254. In doing so, we seek to alleviate the 
suffering of the Syrian people and protect our allies. The Syrian 
people deserve an end to this conflict. Thank you for the opportunity 
to testify, I welcome the opportunity answer your questions.

    The Chairman. Thank you. Thanks for being here.
    I typically defer to Senator Cardin first, because of the 
last portion of your statement--we are now not demanding that 
Assad leave. Instead, as I understand it, we are embracing the 
U.N. resolution, as Putin has recently done. Is that correct?
    Ambassador Satterfield. That is correct, Mr. Chairman.
    The Chairman. That would mean that there would then be an 
election that would take place?
    Ambassador Satterfield. There would be a constitutional 
reform and revision process, and then there would be an 
electoral process. That electoral process would be fully under 
U.N. monitoring and supervision.
    The Chairman. And it is my sense that people like you and 
others believe that, if that process occurs as has been laid 
out and as supported right now by Russia, you believe that the 
way Assad would go is through a democratic election where he 
would lose?
    Ambassador Satterfield. Mr. Chairman, we cannot conceive of 
a circumstance where a genuinely fair electoral process 
overseen by the U.N. with participation of the Syrian displaced 
community could lead to a result in which Assad remained at the 
helm. Yes, sir.
    The Chairman. Is there any chance it would actually be, in 
Syria, a real election that people actually had the opportunity 
to vote, that it was not corrupt?
    Ambassador Satterfield. This is that goal, exactly what 
Russia and the international community are formally committed 
to see achieved. The task to make it real, of course, is the 
challenge before us all.
    The Chairman. Thank you so much.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Ambassador, thank you. Just about everything you said, I 
agree with. I like the way that you emphasized the importance 
of Mr. Assad leaving.
    But let me just express some skepticism here with Russia's 
involvement and try to understand how we are prepared to deal 
with what is likely to come about. And that is Russia's goals 
of not having a free Syria. They want to have a footprint in 
Syria. They are comfortable with Mr. Assad. It looks like they 
are setting him up to be immune from being held accountable for 
his war crimes.
    I agree with Senator Corker's inference, that it is beyond 
reasonable expectations that Syria would have traditionally 
free and fair elections in the near future, that that would be 
extremely difficult to pull off.
    So how do we minimize Russia's influence in the outcome of 
a Syrian-negotiated settlement?
    Ambassador Satterfield. Senator, there are two things that 
we do to achieve that goal.
    And I do not disagree with any of the points that you have 
just made. They form the basis for our own approach and 
understanding.
    We have an international consensus, at this moment, which 
is widely supported, that there should be no granting of 
legitimacy, authentication, to what has happened in Syria minus 
that credible constitutional reform and electoral process. That 
is, no certification of victory, either from Moscow or for the 
regime, from the international community. That is the first 
tool.
    The second tool is money. Syria needs reconstruction. The 
bill varies in estimate, but let us say between $200 billion 
and $300 billion plus to reconstruct. The international 
community has committed itself not to provide that 
reconstruction assistance until those goals--constitutional 
reform, U.N.-supervised elections--are realized.
    Now that is a powerful incentive, because our assessment is 
Russia, Iran, the Syrian regime do not have those funds, are 
not going to be able to contribute, but they want a certain 
stability, and they want authentication. And that is what we 
are withholding until we see the progress made.
    The second and final comment I would make is, translating 
everything we do, U.S. and the international community, through 
the U.N., through the legitimacy of the Security Council and 
Resolution 2254, this is the counter, or counterweight, to 
Sochi, to Russian initiatives, which would control and contain 
a track on their own. It will not have legitimization minus the 
validation of the Secretary General and the U.N.
    Senator Cardin. Let me add one more point that this 
committee has been particularly strong on, the United States 
Senate and Congress have been strong on, and U.S. diplomats 
have been strong on, traditionally. That is that Mr. Assad must 
be held accountable for his activities, and that cannot be 
compromised in a final political settlement.
    Are you still committed to that goal?
    Ambassador Satterfield. We are, Senator.
    Senator Cardin. Thank you. Let me mention another area that 
has been a major concern, and that is Iran's footprint in 
Syria. It seems pretty likely that Russia would be sympathetic 
to Iran having a footprint in Syria moving forward. There is 
great concern among both Jordan and Israel about their security 
interests with Iran's presence in Syria.
    What type of game plan do we have to make sure that we 
minimize risk factors and that we protect our traditional 
security arrangements with both Israel and Jordan?
    Ambassador Satterfield. Senator, the presence, the 
activities of Iran in and through Syria--by ``through Syria,'' 
I mean a greater qualitative enablement of the Hezbollah threat 
in Lebanon--is the primary strategic challenge that we and our 
partners face over the future in and through Syria, and I would 
add Iraq as well.
    We would hope Russia would recognize that Russia's long-
term strategic interests, risk assessment, risk calculus, 
should not weigh Iran as a positive factor, that Iran poses a 
challenge and a threat to Russian interests as well.
    Senator Cardin. Do you think we could convince Russia of 
that? I agree with you. I think it is just the reverse with Mr. 
Putin. I think he likes having a proxy of Iran in Syria.
    Ambassador Satterfield. Senator, I think the focus has 
been, right now, from the Russian point of view, on 
stabilization in Syria, securing the success and victory of the 
regime, putting an end to the chaos and violence there, which 
the Russians see as threatening their interests. The question 
is at what price over the long-term. And an enhancement in a 
permanent sense of Iran's role there cannot serve any regional 
or transregional security interests.
    But you asked what we are doing about this challenge.
    The first step was the defeat of ISIS. As long as ISIS 
remained a potent fighting force in Syria, the bandwidth, the 
space to deal with these broader strategic challenges, 
including Iran and, of course, Assad and the regime simply was 
not there. That bandwidth is being freed up now. With the U.N. 
process, with international support for a credible electoral 
and constitutional reform process, we see political transition 
in Syria as a potentially achievable goal.
    We do not underestimate the challenges ahead. This is going 
to be hard, very hard to do. Assad will cling to power at 
almost every cost possible.
    But with respect to Iran, we will treat Iran in Syria, and 
Iran's enablement of Hezbollah, as a separate strategic issue.
    How do you deal with it? You deal with it in all places 
that it manifests itself, which is not just Syria, but Iraq, 
Yemen, the Gulf, other areas where Iran's malign behaviors 
affect our and our allies' national interests.
    A difficult challenge, but not an impossible challenge, and 
it is one we are seized with right now. But having a 
politically transformed Syria will, in and of itself, be a 
mitigating and minimizing factor on Iran's influence, and the 
opposite is also true.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before turning to Senator Young, the Russian concerns about 
Assad, do you think Russia cares greatly about Assad himself or 
just having a Syrian leader, period, that they can deal with?
    Ambassador Satterfield. Senator, I have worked with the 
Syrian puzzle since 1983. My view is that the Russians, above 
all, as the Soviets before them, treasure stability and fear 
chaos. Assad represents in their eyes, I believe, a source of 
stability at a very high price, and, we would argue, ultimately 
instability as a generator of further violence, radicalism, and 
terror.
    But I think that is the prime motive. It is not Assad qua 
Assad, it is stability and an end to threatening chaos.
    The Chairman. Senator Young?
    Senator Young. Thank you, Chairman.
    Good to see you again, Mr. Ambassador. Thanks for being 
here today.
    I think a lot of Hoosiers will be watching this hearing, 
actually with great interest. On January 2nd, I attended a 
ceremony for the 38th Sustainment Brigade of the Indiana 
National Guard. We are sending 250 of our best men and women in 
uniform into Kuwait to support our operations in Iraq and 
Syria. And these Hoosiers, all Americans, demand the best 
possible strategy for our operations there.
    I asserted in a letter to Secretary Tillerson back in 
February of 2017 that my own belief is that, if we are going 
to, in an enduring way, defeat terrorist groups, we are going 
to have to address the legitimate concerns of Sunni communities 
on the ground and governance needs moving forward, something 
that has already been spoken to.
    This will not be easy, I understand. But do you believe the 
current strategy is optimized and properly resourced so far, in 
order to ensure that we accomplish those objectives?
    Ambassador Satterfield. Senator, you are quite right in 
signaling that, without an addressing of Sunni concerns, there 
is going to be a resurgence of violence. Some of those concerns 
are being addressed. Others can be addressed better by 
governments in the area.
    But the issue itself very much forms part of our dialogue 
with every state in the region and with our partners from 
outside. There are systemic, longstanding generators of 
extremism and violence in this troubled region, and they cannot 
be ignored in any instant strategy to deal with particular 
eruptions. Quite right.
    Senator Young. Is there a particular milestone or two that 
you are watching to ensure that our existing strategy remains 
on track?
    Ambassador Satterfield. There is. We watch very carefully 
Iranian malign behaviors throughout the region. You and I have 
discussed Yemen in particular, in this regard. But there are 
other places that we watch.
    In terms of our aggressive efforts to constrain, to roll 
back these efforts, to deny Iran the ability to deploy, 
proliferate, support these efforts, we are more actively 
engaged today than at any point in the past 15 years. It is a 
big challenge ahead of us, and it is a challenge on many 
fronts. And we need the full cooperation of our partners in the 
region, as well as in Europe and elsewhere, as we move ahead.
    But yes, there is, indeed, a strategy here.
    Senator Young. You mentioned Yemen, you opened the door, so 
I just want to thank you and your team for your excellent 
diplomatic work on this front. Do you have a really quick 
update on humanitarian assistance and its delivery or lack 
thereof?
    Ambassador Satterfield. I do, indeed, Senator. And we very 
much appreciate your efforts and those of your colleagues in 
helping us with this initiative.
    We have now full access to commercial and humanitarian 
goods through Hodeidah and Salif ports. That means, in 
particular, fuel moving. We have already seen a reduction in 
the price and an increase in the availability of basic fuels 
throughout Yemen, as we expected would be the case.
    We have engaged with the Saudis. I spoke with the Foreign 
Minister only yesterday to ensure that there would be no 
further closures of these ports. And we will continue to work 
over the days ahead with the Saudis, with the Emiratis, on this 
issue.
    The cranes, the four U.S.-funded World Food Program cranes, 
should arrive at 10:00 p.m. on this Sunday evening and be 
installed the next day in Hodeidah.
    That is a major accomplishment, and we all deserve, 
including the Congress, credit for having made this possible.
    Senator Young. Fantastic. Thank you.
    In your written testimony, you write that Assad has 
inflicted suffering and countless deaths, including the heinous 
use of chemical weapons, including sarin gas, against his own 
people. You also write of the need to diminish the Iranian 
proxy, Hezbollah, and Iranian forces in Syria.
    Is it accurate that Iranian forces and proxies are in 
Syria, at least in part, to help keep a man in power who has 
murdered many of his own people with sarin gas?
    Ambassador Satterfield. That is absolutely correct, 
Senator.
    Senator Young. Okay. I hope the people of Iran heard that. 
This radical and oppressive regime in Tehran is not only 
failing to respect the human rights of their own people, the 
civil rights of their own people, but they are also using the 
resources that are causing some of this ferment in Tehran and 
have driven much of these recent protests to keep a man in 
power who has murdered his own people. And that is, I think, 
notable in light of the history where Saddam Hussein used gas 
against Iranian civilians back in the 1980s.
    Thousands of Iranian citizens were killed through the use 
of chemical weapons, inflicting just some horrible scars on 
that nation, on many families. And I think the people of Iran 
need to know that their own regime is complicit in, and 
actually directly involved in, these activities.
    Ambassador Satterfield. Senator, I am glad you raised that, 
because one of the most interesting aspects of the statements 
made, slogans used by protesters in Iran over the past 2 weeks, 
has, indeed, focused on the involvement of Iranian money and 
Iranian forces outside of Iran. And one of the protesters' 
slogans was, ``Not Syria. Not Iraq. Have a thought for us,'' 
that is, Iranian citizens at home.
    So I think there is a recognition, perhaps more than we had 
assumed, of exactly what the nature of Iran's external 
engagements are and what the price being paid for those 
engagements really is.
    Senator Young. Thank you, Ambassador.
    The Chairman. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you, Ambassador. Let me just say, in your opening 
statement, you noted that last year the State Department 
announced a memorandum of principles between the United States, 
Russia, and Jordan that basically included a commitment to 
``remove Iranian-backed forces, including Hezbollah and other 
irregular forces.''
    Now, since then, we have seen Iran maintain its land bridge 
into Syria through Iraq, increase its own and proxy forces 
deeper into Syrian territory, pushing up to the border with 
Israel. Meanwhile, Russia has subsequently described Iran's 
presence in Syria as ``legitimate,'' insists that they never 
committed to supporting the withdrawal of Iranian forces.
    Last month, National Security Adviser McMaster indicated 
that as much as 80 percent of Assad's fighting force may be 
provided by Iran. And Iran seems keen on pursuing a land 
bridge, continuing a land bridge through Iraq.
    So I do not understand. I heard your testimony that we, the 
United States, did not have enough bandwidth. But is it still 
the policy of the United States to actively remove Iranian-
backed forces from Syria?
    Ambassador Satterfield. Senator, it is absolutely our 
policy to see Syria able to move forward free of all foreign 
forces, and that specifically includes Iranian forces, fighters 
brought in from outside Iran to fight with them, and Hezbollah 
elements.
    Senator Menendez. Some of us are waiting to see the 
administration's Iran strategy, to be very honest with you. 
This Congress gave the administration some rather sweeping 
authorities with strong congressional approval, many of which 
have not been used yet--many of which have not been used yet.
    So we are waiting to see what this strategy is, but how can 
we effectively counter Iran now after essentially focusing 
elsewhere? It seems that our forthcoming counter-Iran strategy 
is a contradiction to what we have been doing in Syria. How do 
you reconcile? Hezbollah has emerged stronger and has a more 
viable military force in Lebanon. How is that going to factor 
into the Iran strategy?
    Ambassador Satterfield. Senator, it was the violence 
precipitated by ISIS. The chaos that resulted in Syria is a 
product of that violence, the seizure of territory that allowed 
Iran, allowed Hezbollah, and other elements allied with Iran, 
to advance their interests and their physical presence. It is 
why the elimination of the ISIS threat was the critical 
condition precedent to being able to credibly deal with Iran.
    But with respect to the borders and to the land bridge 
issue, we see minimal movement by Iran across land borders. And 
that is in significant measure a product of our own presence, 
our own activities, not just on the Syrian side of that border 
but also on the Jordanian and, in particular, Iraqi side.
    And Iraq cannot be eliminated as a critical element in our 
Iran strategy. We have worked very closely with Prime Minister 
Abadi, with the legitimate forces of his government in Baghdad, 
to counter Iranian aspirations. This has been a hard struggle, 
particularly over the period since the Kurdish referendum.
    Senator Menendez. Right. Now let me just ask you this. You 
say there is not much of a land bridge. I would beg to differ 
that there is not much, or there is not any. The reality is, 
this is a constant challenge.
    But let me ask you, I asked you, specifically, whether it 
is the policy of the United States to actively remove Iranian-
backed forces from Syria. How so? You said you gave me a 
generic answer. We do not want to see any foreign entities 
inside of Syria. Well, Russians are a foreign entity inside of 
Syria, for example.
    So specifically, as it relates to Iran, if that is the 
policy of the United States, to diminish its influence and to 
remove Iranian-backed forces from Syria, how so? With force? 
With troops? With diplomacy? Which one of those?
    Ambassador Satterfield. Senator, it is a combination of 
measures. First and foremost, it is aggressive sanctioning and 
measures undertaken by the U.S. and our partners to deny the 
physical tools, the ability to move assets, and the ability to 
finance Iran's activities.
    Senator Menendez. When are those going to happen? Because 
we have given the administration a whole new host of sanctions 
that they simply have not used. And so if we did not have the 
bandwidth then, I certainly hope we have it now because we are 
engaged here after the fact in a much more difficult set of 
circumstances to change the dynamics on the ground as it 
relates to Iran.
    So I hope we are going to see the pursuit of the sanctions 
that we gave. We gave sanctions on ballistic missiles. We gave 
sanctions on human rights violations. We gave sanctions for the 
destabilization of the region for promoting terrorism.
    I have to be honest with you, I have not seen those used. 
So it is time to use them.
    Ambassador Satterfield. Senator, I would be delighted to 
provide you with the list of designations and sanctions invoked 
by this administration. It is an unprecedented quantity of such 
sanctions. We will be happy to detail them for you.
    Senator Menendez. I would love to see the details, because 
I think much of what was done was done under previous 
authorities. There are more far-reaching authorities that the 
administration has, and I cannot wait for them to use them, so 
we can actually get to an Iran strategy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you very much, Mr. Ambassador. We appreciate you 
being here today.
    We talk about the U.S. seeing Assad as chaos, Russia seeing 
Assad as stability. What, if any, shared interests are there 
between the United States and Russia right now, in terms of 
Syria?
    Ambassador Satterfield. When we discuss exactly this issue, 
where are our areas of consonance with the Russians, the first 
thing we come up with is: you want to see stability, you are 
concerned about chaos and the projection of risk, violence, 
Sunni extremism to the Caucasus, to Russia proper, all right? 
We understand that. We can share it. But how does the 
perpetuation of the regime whose behaviors have provided the 
fuel for the eruption of that Sunni violence and extremism 
serve any medium- or long-term Russian interests?
    And it is this point that we continue to reinforce with our 
colleagues in Russia. We do not understand the long-term 
strategic thinking of Russia, if there is a long-term strategy 
being applied here.
    But whether or not they concur or agree on this, our 
position with respect to Russia is, we cannot and will not 
legitimize a Russian alternate political process which is 
independent of and not supported and endorsed by the Secretary 
General.
    Senator Barrasso. It is interesting because I think there 
is a very good story. Voice of America did a report about 
Russian Foreign Minister defends this Syria peace conference. 
And you mentioned what is coming up this month in Sochi, the 
efforts there. I just wanted to have you explain and talk to us 
a little bit about that.
    Lavrov has said, hey, this is going to be great. There is 
broad support among the Syrian people. We have 40 Syrian rebel 
groups saying Russia is trying to circumvent the U.N. peace 
process. They will not attend the Sochi talks. The rebels say a 
mediator in the peace talks has to be a neutral and honest 
broker. But yet Russia says, hey, no, that is not the problem. 
Let us all come to Sochi and solve the problem.
    I view this as a way away from the United Nations and not 
what we are looking at. Can you talk a little bit about what 
they are trying to do at the end of this month and why we 
should not change our position?
    Ambassador Satterfield. Senator, what the Russians claim, 
and they have claimed this to the Secretary General, to the 
Secretary, to the President, is that they have no intention 
through Sochi or any other channel of going beyond 2254 and the 
U.N. process in Geneva. Well, that is fine rhetoric, but it 
needs to be demonstrated.
    And there are significant doubts, reservations, about 
whether Sochi is a one and done and translate outcomes to 
Geneva, which is one possible option, or is like Astana, a 
second track, nominally part of Geneva but, in practice, under 
Russian control and direction and only informing Geneva and the 
U.N. as outcomes are derived.
    It is that latter option which, I believe, the Secretary 
General would not and cannot support, and certainly we could 
not either.
    Senator Barrasso. Because the Voice of America goes on to 
report the U.N.-brokered peace negotiations in Geneva right now 
involving Russia, Turkey, Iran made only minor progress toward 
ending the issues there. And it does seem that there is trying 
to be a hijacking of efforts by the Russians to turn attention 
away and maybe even delay, slow down, and prevent the kind of 
progress that you are looking for in Geneva.
    Ambassador Satterfield. Senator, there is a tactic in other 
areas of, ``You do not have any ability to move your process 
forward, so only we can take charge.'' Well, that is a setup 
because we, Russia, have ensured that the regime will not take 
a serious position in Geneva. And we see that.
    There is a real test before the Russians. And I do not say 
this in a confrontational manner, just as a factual statement. 
The Russians have significant influence over the Syrian regime. 
If they wish to demonstrate their credibility to the United 
Nations, put the U.S. aside, they have every opportunity to do 
it in the next few days and weeks in Switzerland by 
demonstrating that the regime is prepared to seriously 
negotiate, not just show up, with the opposition.
    And we will all see that, and we will be able to make 
judgments based upon it, but we have not seen it to date.
    Senator Barrasso. So getting back to the first question and 
concluding with this is, do we, right now, have any shared 
interests in Syria with the Russians?
    Ambassador Satterfield. We continue to seek demonstrations 
that the Russians do recognize that beyond the defeat of ISIS, 
which is a shared interest and one that we do not challenge, 
defeat of Al Qaeda and Al Qaeda-affiliated elements, another 
shared view, that on the big issue, Iran, the political 
direction of Syria, that we do have a shared view. And that 
remains to be shown.
    Senator Barrasso. Thank you, Mr. President.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Thank you for the upgrade.
    [Laughter.]
    Senator Shaheen. I would actually like to begin by adding 
my concern to those that you and the ranking member have 
expressed about the unwillingness of the Department of Defense 
to send a witness to this hearing.
    I serve on the Armed Services Committee, and we have heard 
consistently from Secretary Mattis that he and Secretary 
Tillerson talk on a regular basis, almost daily, and that they 
are working closely together to address the conflict areas we 
have in the world. So it seems to me that it is in everyone's 
interests to present that united picture before Congress, as 
well as to do it privately.
    And so I think we should lodge a very deliberate--send a 
letter expressing our concern to the Department of Defense 
about their unwillingness to be part of this hearing, and I 
hope you and the ranking member will consider doing that.
    The Chairman. Thank you.
    Senator Shaheen. Ambassador, thank you for being here.
    Do I understand from your testimony and from what you 
submitted in written form that our strategy in Syria is to 
defeat ISIS and then to successfully implement the memorandum 
of principles and the U.N. Security Council Resolution 2254? Is 
that what we are assuming is our strategy?
    And if that is the case, can you help me understand how we 
think we are ever going to get 2254 implemented without some 
further action with Russia or on the ground in Syria that will 
allow us to make progress and force people to understand how we 
conclude this conflict?
    Ambassador Satterfield. Senator, our strategy in Syria is 
based on many elements. Defeat of ISIS is, certainly, the first 
out of the box. It is a necessary precondition.
    The second element is basic stabilization: bring down the 
level of fighting, particularly in the north and the northeast, 
stabilize the humanitarian situation----
    Senator Shaheen. Okay, I guess I would stop you there and 
ask you how we think that is going to happen, because recent 
reports show that the fighting is actually now moving into 
Idlib province where there had been, for a period of time, a 
lack of conflict.
    Ambassador Satterfield. Senator, the northeast is not 
Idlib. The northeast is the area controlled by the Syrian 
Democratic Forces, partnered by the United States, the north 
and the northeast. Idlib is in the west or northwest. Idlib is 
a deeply troubled area with an Al Qaeda affiliate largely in 
control.
    We are working on stabilization in the north and the 
northeast right now very successfully and with a minimum of 
U.S. physical presence, about 2,000 U.S. military and seven, 
soon to be 10, Foreign Service colleagues. This is a highly 
efficient operation, and it is working on the ground.
    But those are only the first steps. The 2254 political 
process, the process that the entire international community of 
like-minded states has signed on to, is the key. It is the key 
to addressing Assad and his departure. It is the key to 
resolving the question of foreign forces and Iranian influence.
    And what are our levers? What are our tools to move that 
forward? They are denial of legitimacy and authenticity to any 
claim of victory by the regime or its supporters in Moscow or 
Tehran and the withholding of reconstruction funds, which are 
vital to the regime and, we think, Moscow's interests over the 
long term. Those are potent levers.
    Senator Shaheen. I agree that that certainly sounds good, 
but it is still hard for me to see what progress we have made 
on the ground other than against ISIS, which I would certainly 
agree we have done very well, but how we are going to get to 
that political solution.
    And I guess the other question that I have for you is, 
there was a recent report that shows that a number of top U.S. 
officials, Brett McGurk, it lists you as one of those, favor a 
limited approach to Syria that focuses on defeating ISIS, 
countering Iranian activities, and then winding down our 
activities in Syria and leaving Moscow's diplomatic efforts to 
address the remaining challenges.
    Do you think that is an accurate report? And why are we 
interested in leaving the field to Moscow?
    Ambassador Satterfield. Senator, with all due respect to 
the publication in which that quote appeared, it is not 
accurate with respect to any of the individuals, myself and my 
colleagues included. That does not represent our position 
because it excludes a critical element, the need for a 
political transition, which requires international as well as 
strong U.S. backing. It does not take into consideration the 
detailed exchanges with Moscow at the level of the President, 
the Secretary, I and my colleagues, which are very much focused 
on what Russia needs to do, if it is to be seen at all as 
credible in the eyes of us, the likeminded, and in the eyes of 
the United Nations. And that is, as I noted to Senator 
Barrasso, a challenge still out there.
    So, no, those are not accurate quotes.
    Senator Shaheen. Thank you. I appreciate your clarifying 
that.
    I am still not clear on how we think we are going to move 
Russia to accomplish what you have laid out, in terms of Syria.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before turning to Senator Johnson, it is interesting, as I 
listen to questioning, I mean, there seems to be, on one hand, 
concerns by some members of the committee that we have 2,000 
troops there, and then concerns by some members of our 
committee that we may be leaving the terrain to Syria. I hope 
as we move along with questioning, we can have more of a 
central thought here, but I do observe that there seems to be a 
push and a pull.
    And I would say, again, that what I have seen happen in 
Syria is a seamless handoff from one administration to another 
and, as a country, tremendous success as it relates to dealing 
with the caliphate. And to me, that component of it, regardless 
of how you may feel about either administration, should be 
something we should cherish and celebrate and now figure out 
what we do going forward. But it was a continuation of a policy 
that led to success.
    Senator Cardin. I would just point out, Mr. Chairman, if 
you would allow me, we need to know what the military mission 
is. We need to know what the diplomatic mission is. We need to 
know, now that ISIS is losing its caliphate and its threat has 
become less severe, what is the military mission, recognizing 
that we need a diplomatic and economic solution for the people 
of Syria? And that does not necessarily require troop levels be 
increased.
    The Chairman. Again, if you would, as I understand the 
troops that are there, they are not involved in combat. Is that 
correct?
    Ambassador Satterfield. Senator, there are still combat 
activities going on in the middle Euphrates valley. The 
campaign against the so-called caliphate--that is, the 
territorially structured presence of ISIS--is not over yet. 
That campaign continues. The level of fighting has 
significantly diminished since the days of urban conflict in 
Mayadin, Raqqa, Deir ez-Zor, but the fight goes on.
    The Chairman. But most of their efforts are in support of 
those that are actually on the frontlines.
    Ambassador Satterfield. They are in facilitation of the SDF 
efforts, who have consistently carried this fight since the 
beginning.
    The Chairman. Very good.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Ambassador, first of all, thanks for your service.
    I am looking at your written testimony to confirm what I 
thought I heard you say, that reconstructing Syria is going to 
cost somewhere in the order of $200 billion to $300 billion?
    Ambassador Satterfield. That is a general international 
effort, sir.
    Senator Johnson. So who has that kind of money?
    Ambassador Satterfield. I can tell you who does not. The 
Syrian regime, Moscow, and Tehran. Who does? The international 
community, companies, international financial institutions. 
They have the money, collectively. But that money is not going 
to flow into a Syria which has not gone through a political 
transformation and transition.
    Senator Johnson. Does the State Department estimate how 
much it is costing, on an annual basis, Iran and, separately, 
Russia, to be engaged in Syria?
    Ambassador Satterfield. We can get back to you in another 
setting with estimates on those numbers.
    Senator Johnson. Would that be classified? Or you just do 
not have them at your fingertips?
    Ambassador Satterfield. Classified.
    Senator Johnson. Okay. Senator Menendez was obviously 
talking about potentially new sanctions. I just want to go back 
in history, the resistance of last administration to impose 
sanctions on Iran based on their nuclear activities. How long 
did it take those sanctions, in complete cooperation with our 
partners, to really take effect, to bring Iran to the table?
    Ambassador Satterfield. Senator, it took some 3 years of 
concerted effort, first to bring Russia and China, who were 
critical consumers and thus valuable in the Iranian economy, to 
come on board, and then to progressively tighten through 
continuous periodic review of the sanctions against the 
hydrocarbon sector. That was the hardest of all the challenges, 
to get full consensus on actively sanctioning, to the 
disadvantage of members like China and Russia, of hydrocarbons. 
When we got it, it finally worked.
    Senator Johnson. So having relaxed those sanctions, 
allowing--by the way, do we have a final figure, a pretty good 
estimate of how many dollars have flowed into Iran because of 
the JCPOA?
    Ambassador Satterfield. We can provide that to you as well.
    Senator Johnson. It is an excess of $100 billion?
    Ambassador Satterfield. We can provide you that number.
    Senator Johnson. Okay. Any chance of having the same kind 
coordinated leveling of sanctions in the next round? In other 
words, in terms of putting pressure on Iran to get out of 
Syria, any chance of having that same kind of coordination?
    Ambassador Satterfield. Very frankly, Senator, no. I assess 
the chances of such coordination to be extraordinarily slim. 
Russia would not agree to participate.
    Senator Johnson. So we can talk about all these sanctions 
that the Congress has provided this administration to level 
against Iran to have some kind of magic effect of getting them 
out of there, but the fact that we entered the Iran nuclear 
agreement, we relaxed those sanctions. Iran has not used that 
money to benefit its people, obviously, based on the protests. 
They have instead used that to fund their adventurism in places 
like Syria. Correct?
    Ambassador Satterfield. Senator, Iran has always 
demonstrated an aggressive attempt pre-JCPOA and post-JCPOA to 
project its influence, to support its proxies, to conduct what 
we would call malign activities throughout the region. It is 
not a factor of the JCPOA.
    Senator Johnson. My point being is sanctions against Iran 
is not going to get them out of there. Correct?
    Ambassador Satterfield. Unless one was capable of 
assembling the kind of unified international sanctions regime, 
which means Russian full participation, to affect hydrocarbon 
flow, something that cut and hurt Iran deeply at the level of 
the Guard Corps and the clerical regime at the top, I believe, 
while we are obliged to sanction, to designate as aggressively 
as we can Iranian actors and activities and institutions to get 
the kind of effect that we saw on the nuclear enrichment 
program, that is going to be a very difficult goal.
    Senator Johnson. So Russia's pretty well in control of the 
situation there with Assad in place. Only with Russian 
cooperation are you going to get rid of Assad. Only if we get 
rid of Assad is any kind of money going to be flowing into 
Syria. I do not see any of those things happening anytime soon. 
Do you?
    Ambassador Satterfield. As I said, this is a difficult 
challenge, but you talked about the factors involved here. We 
believe that Moscow wants to see more than a transitory faux 
stability under the fist of Assad established in Syria. To get 
that, if that is really what Moscow wants, then they are going 
to need international support for reconstruction and 
legitimization. That is not going to come under the present 
circumstances.
    Senator Johnson. We will need Russia to cooperate with us 
to get Iran out first.
    Ambassador Satterfield. We are going to need Russia to put 
pressure on the regime to abide by Security Council Resolution 
2254 and participate in political discussions in Geneva. Yes, 
Senator.
    Why should Russia do that? Because minus such engagement, 
there is going to be no money coming into Syria. There is going 
to be no legitimization from the broad international community, 
either for Russia or for Syria. And we believe that is 
meaningful to Russia.
    Senator Johnson. Thank you for your insight.
    Thank you, Mr. Chairman.
    The Chairman. Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    And thank you, Ambassador.
    I note that you have referred several times to the U.N. 
Security Council 2254. When I take a look at article 4 of that, 
it has this wonderful vision of a Syrian-led process that will 
produce a new constitution, free and fair elections that would 
be held within 18 months. Eighteen months has long expired. It 
would be administered by the U.N. It would include the diaspora 
in the voting. It would meet international standards of 
accountability and transparency. All wonderful and beautiful.
    But we have now a Geneva process sponsored by the U.N., and 
we have this Astana process that is sponsored by Russia with 
Iran and Turkey involved. The cooperation of Syria in the 
Geneva process is minimal, to say the best. The U.N. is not 
involved in Astana.
    It just seems like there is no real traction toward the 
vision laid out in 2254. There is a lot of chaos and messiness, 
I guess.
    How do we get from kind of this goal of cooperating to 
assault ISIS, which was kind of a clear objective, now that 
that is largely accomplished, how do we actually get traction 
toward the vision of 2254?
    Ambassador Satterfield. Senator, it is a mix of approaches. 
The first is to try to engage, both in a positive and in a 
negative sense, with the Russians to undertake the 
responsibilities that they have committed to, committed to in 
Da Nang with the President, committed to in their own support 
for Resolution 2254, and committed to directly at the highest 
levels of the Russian Government to the Secretary General of 
the U.N. That is a positive exhortation.
    The negative side of this is what does not happen, what 
does not come if they do not cooperate. No international 
support for Syria. No international recognition or 
legitimization of what Russia and the regime are doing.
    And with respect to the U.N., we are not leaving the U.N. 
alone. And the ``we'' here is not just the United States. It is 
a collective we of critical countries in the region, in Europe, 
in the international community, working side-by-side with the 
Secretary General, with his special representative for Syria, 
to make of Geneva more than the, as you correctly say, place 
for minimal, at best, progress.
    And all these tracks are in place simultaneously.
    Senator Merkley. You say that Russia has committed though, 
and you say that with an emphasis that sounds like they have 
really committed, and yet why would we have the Astana process, 
for example, if they were really committed to the U.N. 2254 
Geneva process? I just find I am somewhat cynical.
    Ambassador Satterfield. Astana was intended, and with the 
recognition of the United Nations as an observer, and we were 
observers as well, to do a different thing. It was to bring 
down the levels of fighting last year and to establish de-
escalation zones. That was it. That was the goal for Astana.
    And the moment it became clear to the United Nations and to 
us that Astana was moving beyond that very tightly focused 
objective to broader quasi-political or outright political 
steps that challenged Geneva, we ceased our participation, 
lowered the level. So did the United Nations.
    Senator Merkley. I think you have described in part where 
my cynicism on this comes from, just the fact that this set of 
circumstances about international negotiations in which the 
U.S. found it necessary to withdraw because it was headed in a 
direction that did not really make sense within 2254.
    Let us turn to those de-escalation zones. The U.S. agreed 
to a zone in the south near Jordan, in the southwest near 
Jordan, and the goal was to protect from foreign influence. But 
in various reports, it has allowed Iran and Hezbollah to funnel 
weapons into that area, for a pocket of ISIS to remain, and for 
Al Qaeda forces to entrench.
    This does not sound like the vision of a zone free from 
foreign influence is being realized. Is there a way to correct 
the misdirection of the goal of this de-escalation zone?
    Ambassador Satterfield. The goal of bringing down the level 
of violence, which was extraordinary and threatening both to 
Jordan and Israel at the time the initial zone was established 
before the memorandum of principles was signed, was largely 
achieved.
    I will note, with the recent exception of a small pocket to 
the northeast of that zone called Beit Jinn where there was 
extraordinary levels of violence and presence of Al Qaeda-
associated forces, by and large, fighting and violence in the 
de-escalation zone came to a close.
    There is an ISIS pocket or an affiliate of ISIS in that 
area, which is not covered, not protected by, not shielded by 
that zone. And there have, indeed, been activities conducted 
against the leadership of the ISIS affiliate in that small 
zone.
    With respect to foreign forces, at the time the memorandum 
of principles was signed, all of us involved--and the ``all of 
us,'' I must say, for the record, were Jordan, the United 
States, Israel--recognized that we had a key objective here, 
which was to get a commitment on the part of the Russians to a 
goal which was extremely important for all of us, the 
displacement of both Revolutionary Guard Corps, Quds Force, and 
Hezbollah positions.
    Not all that many in terms of people, but challenging 
because we saw no reason for those forces to be there 
associated with the conflict in Syria. We believed they were 
there to prepare for an enduring presence and an enduring 
threat to Jordan and Israel on the Golan front.
    We, Israel, the Jordanians have repeatedly noted to our 
Russian colleagues that many of those positions remain in 
place. The Russians acknowledge that that is, in fact, the 
case. This is not a satisfactory outcome. And all of us in our 
separate and collective dialogues with Moscow continue to 
reinforce this is a commitment by Russia, and we expect it is a 
commitment that will be fulfilled. It has not been, 
comprehensively, to date.
    Senator Merkley. Thank you.
    The Chairman. Senator Isakson?
    Senator Isakson. Thank you, Chairman Corker.
    Thank you for being here, and thank you for your commitment 
to the United States and our future.
    I have to admit, I am frustrated. It is kind of like 
watching reruns of the news for years. Assad has always been a 
bad guy. Russia has always used Syria and has always been a 
driving force in Syrian policy one way or another, as far as we 
are concerned, as far as the Middle East is concerned.
    If I am hearing right, and I want you to correct me--and I 
am very correctable. My wife will tell you that in a heartbeat. 
Russia is the problem to get to a point of a solution in Syria. 
Is that not correct?
    Ambassador Satterfield. Both Russia and Iran have the 
fundamental support for the Assad regime that has allowed that 
regime to survive. Each of them presents a unique challenge: 
Russia from the standpoint of the ongoing support militarily 
and politically for the regime, Iran because of its behaviors 
in and through Syria.
    Senator Isakson. You say Russia and Iran, as if they are 
two different countries, and they are, but they are basically 
the same player in terms of their interests in Syria. Is that 
not correct?
    Ambassador Satterfield. Well, Senator, we certainly hope 
that that is not correct. We hope and we base our approach to 
Russia on the assumption, which we do not hold out there as a 
vague concept, but pointedly note to them that their interests 
should not be the same as that of Iran. We cannot imagine how 
Russian security interests over the long term for the region, 
for Russia itself, match the ambitions and hegemonistic drive 
of Iran over the long term.
    If there is a short-term coincidence of interests here, 
that is something for Russia to justify and explain. We do not 
see how it can be a long-term interest.
    Senator Isakson. What does hegemonistic mean?
    Ambassador Satterfield. Seeking domination.
    Senator Isakson. You learn something every day. I never 
heard that word. That is helpful.
    Well, my comment is this. When I say Russia and Iran are 
the same, they have parallel interests, if not uniquely aligned 
interests. I know we do not want a two-track process. We do not 
want Astana and 2254. We would like to see one process. Until 
we get to one process, you can never hope to have one solution, 
is the way I look at it.
    Is there a catalyst that we can cause to take place, an 
action of some type, that might prompt the necessity of making 
the decision to stick with one or the other and not both?
    Ambassador Satterfield. As I noted, we have lowered, 
significantly, the level of our participation in Astana, as has 
the United Nations because of our concern recognition. Astana 
has moved well beyond the purposes for which it was created and 
which we supported.
    But you ask, how do we bring this to a single track, which 
has to be Geneva? And the answer is, the Secretary General, not 
the U.S. Government, the Secretary General of the United 
Nations, has the power to legitimize or not, support or not, 
any purported process or track said to support the Geneva 2254 
process.
    The Secretary General--and I am not putting words, I think, 
in his mouth--is deeply reserved with respect to the Russian 
assurances regarding Sochi. Without U.N. validation for this 
track, the Russians really are on their own, and I am not sure 
that is a place they want to be.
    They are gaming this, but our position has been clear to 
them. The U.N.'s position has been made very clear to them.
    They have an opportunity in the days ahead in Switzerland 
to demonstrate a different, credible intent, which can give 
some credibility to their assertions about Sochi, not in our 
eyes, but in the eyes of the United Nations. Whether they do 
that or not is up to them. But the challenge has been posed.
    Senator Isakson. Well, it would just be my observation, 
based on the hearings we have had and this whole process on 
Syria during the tragedy over the last 5 to 6 years, and 
particularly the last 2 years, that the Russians have always 
been the other factor. No matter what the issue was, they were 
on the other side of whatever issue we were on as far as Syria 
was concerned, whether it was for Assad and we were against 
Assad, or whatever it might be.
    Until the Russians are committed to a one-track solution, 
there is not going to be a one-track solution, in terms of 
Syria. Is that a fair statement?
    Ambassador Satterfield. I think that is a very fair 
statement, Senator.
    Senator Isakson. I will amend what I said earlier, which 
you corrected me on. Russia is the key to getting to a one 
track to get us to a solution.
    Ambassador Satterfield. It is, indeed, sir.
    Senator Isakson. If we elevate their role and 
responsibility of carrying that out, we might have a chance to 
get to one negotiating point for a future for Syria.
    Ambassador Satterfield. Senator, we have been trying at 
every level of this government and the U.N. and the 
international community to put Russia squarely in front of 
exactly that responsibility.
    Senator Isakson. Thank you for your work.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin. Thank you for this hearing, and thank you for your 
leadership, along with Senator Rubio, in passing the Syrian War 
Crimes Accountability Act through this committee in June. I 
think it is important that we continue to make clear to the 
world community that we intend to hold accountable Assad and 
his regime for their horrific crimes against humanity, and that 
we do not step back from a commitment to human rights and 
accountability as we try and untangle this incredibly complex, 
difficult strategic situation in Syria.
    Thank you, Senator Cardin, yesterday, for releasing an 
important report that details Russia's malign actions to 
undermine democracy throughout the Western world.
    And, Ambassador, thank you for your long service and for 
helping us better grasp some of the contours of administration 
policy. I, too, am struck that the Department of Defense 
declined to be represented in this conversation.
    I will agree with Chairman Corker that there was a seamless 
handoff from one administration to the next, but qualify that 
by saying, with regard to the fight against ISIS, specifically 
the caliphate, that piece seems to have gone remarkably well.
    But I do not see a seamless handoff--if anything, the 
opposite--when it comes to refugee policy and support for 
refugees and for democracy and governance. The resources needed 
by the Department of State and USAID in order to do very 
difficult work, not just in Syria and the region, but globally, 
and the sorts of decisive actions, the willingness to use the 
sanctions authority this committee and this Congress gave this 
President, strongly bipartisan, new sanctions authority to push 
back against Russia for its malign interference in our election 
and their interference with our allies, and their actions in 
Syria, and a refusal to use new sanctioning authority against 
the ballistic missile program, human rights violations, and 
regional support for terrorism.
    There have been some designations, and I welcome them. I 
only hope there will be more, because I think the situation in 
southwest Syria, which you were just discussing with Senator 
Merkley, by which Iranian proxies now have a dozen positions 
just over the border from our vital ally Israel and Jordan, is 
not just untenable, it is unacceptable.
    And I appreciate the optimistic view that has been laid out 
about a positive path forward through which there might be 
U.N.-sanctioned and supervised free and fair elections 
involving the millions of Syrians outside of Syria and 
displaced within Syria, and a credible process for free and 
fair elections. But there are moments when aspiration seems 
delusional.
    And I am concerned by some of the things we have discussed 
today that there are clear signals that this administration 
intends to declare victory against ISIS and remove itself from 
the Syrian conflict.
    We seem divided on this committee, in terms of our views 
about the importance of remaining engaged on the ground. I 
think this is a valuable conversation for us to have with you, 
sir, as well as with senior representatives from the Department 
of Defense and other entities within the executive branch that 
are vital to our really understanding the situation.
    But I am alarmed that Iran has successfully injected 
Hezbollah and succeeded, with Russian support and sponsorship, 
in sustaining Assad and in transforming some of the Shia 
militias in Syria. They are beginning to turn them into a 
Hezbollah in Syria for the long haul.
    I would be interested in your view, sir. Let us just assume 
that there is a real chance that Russia is not acting in good 
faith here and is not going to meet its commitments, and let us 
just assume that our leverage, which I respect, of withholding 
a commitment for reconstruction dollars is insufficient. How do 
we prevent a situation in Syria that mirrors the tragic 
situation in Iraq where ISIS emerged because there was a 
vacuum? How do we prevent that from happening?
    Ambassador Satterfield. Senator, we absolutely contemplate 
the kind of alternative outcome that you just laid forward. And 
the President has committed, as a matter of strategy, that we 
will not leave Syria. We are not going to declare victory and 
go. That is not my opinion. That is the President's strategic 
judgment.
    We are going to stay for several reasons: stabilization and 
assistance in the vital north and northeast; protection of our 
allies, the Syrian Democratic Forces who have fought so 
valiantly against ISIS in the northeast; try to work to help 
transform the political structures in that area to a model for 
the rest of Syria and capable of being credibly represented in 
a new Syrian state. But for other reasons as well, including 
countering Iran and its ability to enhance its presence in 
Syria and serving as a weight, a force, able to help us achieve 
some of those broader objectives that we have been speaking 
about during the course of this hearing.
    Now, your posit of what happens if all of these approaches 
fail to see success, I rarely comment, for reasons you will 
understand, on hypotheticals. But I will say this: Any 
meaningful strategy toward Iran's malign behaviors, whether in 
Syria, Iraq, or elsewhere, will require a full toolbox spectrum 
of measures involving all of the agencies and assets of the 
U.S. Government and, ideally, active support from critical 
allies in the region and outside. And I will not go beyond in 
my commentary on that, but that is what will be needed.
    Senator Coons. Thank you, Mr. Ambassador.
    I might just, in conclusion, say that I really appreciate 
the great and strong work of the chair and ranking. I only hope 
that the President uses the tools given him by Congress to 
demonstrate engagement against Iran and does not leave the Iran 
nuclear agreement, the JCPOA, which I think would further 
distance us from our vital partners in that work. There is a 
constructive path forward here. We will know within days 
whether he is choosing to take it.
    Thank you.
    The Chairman. Thank you.
    Senator Risch?
    Senator Risch. Thank you.
    In response to Senator Coons, I am not so sure that the 
committee is divided on engagement on the ground. I think, 
rather than that, I think the frustration here is that--people 
are willing to do that. We want to know what we are doing, 
where we are going. What is the objective? What is the strategy 
to get there?
    And I have been listening to this for years and years on 
this committee. Nothing ever changes. I mean, it is just murky. 
Before you can resolve a problem, you have to understand it. 
You have to have some clarity on it. And it is just not here.
    I have listened over and over again, and I appreciate your 
candid statement that you and your colleagues have approached 
the Russians on, ``What do you people want? Where are we going 
here?''
    And it is confounding. It really is. I mean, the longer you 
deal with the Russians, you conclude how inept they are.
    As you know, on the Intel Committee, we are doing a 
longstanding deep dive into what the Russians did, as far as 
our elections are concerned. Without going into the classified 
stuff, in the most recent public hearings we had, the Russian 
ineptness was stunning. If, indeed, they were trying to affect 
the elections, they were running ads that ran against each 
other, that were counter to each other.
    And again, it leaves you with, what do they want? What is 
their objective? What is their strategy?
    And so I guess I would ask you, can you give us, in a 
short, clear statement, what you personally believe that the 
Russian strategy is, as far as Syria is concerned?
    Ambassador Satterfield. Senator, in a different setting, I 
would be happy to elaborate on the multiple layers of what we 
assess to be Russia's objectives and interests. But in this 
open hearing----
    Senator Risch. But you would agree with me that until we 
understand that, we cannot really get our arms around a 
strategy to move forward on our behalf?
    Ambassador Satterfield. We tried to reflect in our dealings 
with the Russians all of the assessed interests that they have 
in Syria. But in this open session, I can simply say that I 
believe and note the Russians want to be able to present to 
their own people a victory in Syria, a political victory that 
is clean and nicely tied and wrapped, and a military victory 
that is equally clean and comprehensive.
    Neither of those two objectives, frankly, are reflected in 
the reality of Syria at this moment, neither that military 
victory nor a political victory. The best course for Russia, I 
say this in a hortatory fashion, would be to work in active 
support of Geneva, of 2254, where they will have allies, 
colleagues, and support to achieve a meaningful political 
resolution in Syria, which, at the end of the day, does not 
threaten Russian interests at all, actually, we would argue, 
supports them over the long term. But I can only note that as a 
hortatory point.
    Senator Risch. Well, surely the objectives that you have 
just described that are aspirational, certainly they cannot be 
so inept as to understand that those are transitory. They are 
not achievable in the near future, in the long future, or 
anything else, given the state on the ground right now.
    Ambassador Satterfield. We try to point that out to them.
    Senator Risch. Thank you. I appreciate that. Good luck.
    Once ISIS came into the picture in Syria, it gave us an 
opportunity to have a clear objective and to do something about 
ISIS, and we did it. And there is a lot of people that are 
concerned about slippage as we shift gears going somewhere 
else. I think that is a legitimate concern. I do not know how 
that plays out.
    The one thing that we do know is that certainly ISIS is 
going to rear its ugly head somewhere else. Where do you think 
that is going to be?
    Ambassador Satterfield. It is not a matter of speculation. 
What we have seen in northern Iraq and in northern Syria, 
central Syria as well, is ISIS has suffered tremendous defeats, 
not just loss of territory and assets, but also loss of 
fighting cadre in many of the urban battles that were fought.
    But many of its core leadership and cadre avoided the 
fight, left, moved to areas that were not as directly 
challenged, the Euphrates valley, the Mosul campaign in Iraq. 
And they remain present, and they remain coherent. And we have 
seen both in northern Iraq and we are seeing in northern and 
central Syria reassertion, episodic, but reassertion 
nevertheless, of an ISIS challenge.
    I would note that some weeks ago six small towns along the 
middle Euphrates valley were retaken from pro-regime forces on 
the southern or western side of the Euphrates by ISIS elements. 
This fight is not over, and I am speaking about the real combat 
fight here.
    We are convinced that, with time, they can, indeed, be 
enduringly defeated, to use that rubric which I think is quite 
appropriate. But not yet.
    Senator Risch. My time is up. Thank you, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, Ambassador, for your enlightening testimony. I 
agree with the comments the chairman made earlier that it is a 
good thing for us to step back and sort of celebrate the 
battlefield successes of U.S. military and coalition partners 
against ISIS, and I do view that as somewhat seamless between 
the two administrations with continuity of military leadership, 
continuity of the basic on-the-battlefield plan. It is hard to 
celebrate too much because the scale of the humanitarian 
disaster is so great, and we know ISIS continues to create 
problems. They are going to just do things differently than try 
to control real estate. But it is important to recognize the 
good work done by our troops and coalition, and also the good 
work done by USAID, State Department, the U.S. humanitarian 
commitment, NGOs, Mercy Corps, one that has done a lot of work. 
The Syrian American Medical Society has done tremendous work 
providing medical care, Syrian-American physicians in Syria.
    So a whole lot of folks, both our defense, our diplomatic, 
but also our American NGO community have done yeoman's work, 
and it is important to recognize that.
    As we are entering into somewhat of a new phase in Syria, I 
have a set of concerns, Mr. Satterfield, that I will just put 
on the table--I am not going to ask you about them--about sort 
of legal authorities for military action going forward.
    The missile strikes against Syria in April of this year, I 
inquired formally of the administration about legal 
justification for the strikes, and they eventually provided a 
letter giving a domestic justification, but no international 
justification.
    And we had a wonderful hearing recently, and one of the 
witnesses, John Bellinger, and I went back and forth a little 
bit. I did not think the domestic justification was sufficient; 
he asserted that it was. But he did point out that the letter 
gave no international law justification for the U.S. military 
strikes, and we are still waiting for an answer for that 9 
months later.
    And I am additionally concerned when I read reports that 
the 2,000 troops that we have in Syria, their mission may morph 
to be sort of a counter-Iran mission. I wonder about the legal 
authority to remain in a country, against the will of the 
government of that country, for a mission that deals with 
another country. We are going to have some additional legal 
questions about that.
    I wrote a letter to both the Secretary of State and 
Secretary of Defense on December 19th raising a series of 
questions. I would just like to introduce it as an exhibit for 
the record, Mr. Chair.
    The Chairman. Without objection.
    [The information referred to is located at the end of the 
hearing]
    Senator Kaine. And I am likely to pose some of the same 
questions in QFR follow-ups.
    The one question I wanted to ask you about was the Kurds. 
The Kurds in northern Iraq have been some of our best partners. 
They are having their own sets of challenges with the Iraqi 
central government. Your expertise and your jurisdiction 
encompass a pretty wide swath. The Kurds in northern Syria have 
been excellent partners with our military and others, but the 
work that we have done with the Kurds in northern Syria has 
created all kinds of tensions with our NATO ally Turkey.
    And I wanted to get your sort of big picture, forward-
looking thought about the way we handle a continuing 
partnership with the Kurds, in honor of the work they have done 
and their place in the next chapter of Syria, with this 
challenge that we have with Turkey's suspicion of any 
partnership that we have with Kurds in northern Syria.
    Ambassador Satterfield. Senator, we very much understand 
the Turkish Government's and security forces concern with the 
PKK association of many of the elements of the Syrian 
Democratic Forces.
    As we deal with stabilization in the north and northeast 
with the SDF, part of that stabilization is the emergence of a 
different kind of local governance-based political structure 
which cannot be labeled Kurdish in an ethnocentric or ethnic-
dominated sense, but a multiethnic mix, Turkmen, Kurd, Arab, 
because there are many areas of the northeast which are 
majority Arab population, not Kurdish at all.
    We see receptivity, significant receptivity, in terms of 
leadership of the SDF in how they transition and move beyond 
what they have been in the past and the associations, many of 
them have had in the past, which Turkey finds so objectionable, 
in order to be able to participate in the future of Syria. Now 
that participation of the peoples of the north and northeast of 
Syria, there is a big swath population, of assets, both 
hydrocarbon and agricultural, and people. They need to be part 
of the future of Syria. They want to be part of the future of 
Syria.
    But on this point, there is a coincidence between Secretary 
General's concerns, Russian concerns, and our own. It is, how 
do you see this political transition in the north and northeast 
take place in a manner that mitigates the Turkish concerns 
about Kurds qua Kurds, and the more specific and understandable 
concern about a PKK terrorist connection?
    We are very much focused on this, but this is a work in 
progress, and I am not going to be able to tell you that a 
month or two are going to see a resolution. But what is good is 
that the SDF leadership understands it is an issue and are 
working on it aggressively.
    Senator Kaine. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rubio?
    Senator Rubio. Thank you. Thank you for being here. Just on 
the outset, I was watching some of the hearing on TV before I 
came here, I am encouraged to hear that, irrespective of JCPOA, 
there seems to be a strong consensus that that does not grant 
Iran immunity from sanctions on non-nuclear activity, of which 
there is no shortage of things to go after them on, and under 
which there are already existing authorities, on human rights 
violations, on ballistic missiles that can target Israel and 
other regional allies of ours, on giving missiles to Hezbollah 
and now the Houthis, and the sponsorship of terrorism, 
cybercrime and attack.
    And so I think it is really important. And by the way, I 
think it is also important for us to make clear, Mr. Chairman, 
and this committee I think has talked about this in the past, 
those Shia militia in the region, and Hezbollah in Syria, they 
are agents, asymmetrical agents under the direct or indirect 
control of the Iranian regime. If we were to ever be attacked 
by any of these forces, we should make abundantly clear on the 
front end that we hold Iran directly responsible for the loss 
of life or property of the United States, our citizens, our 
personnel abroad, whether in the military or at the State 
Department and our facilities.
    This little game they play where they use other people to 
attack us, that one degree of separation, it is something we 
should make clear on the outset, we will hold them responsible 
for it. So I think that is important to lay on the record.
    Now, on this issue of Syria, it is good news. You see the 
map of the ISIS territory held 2 years ago at this time and 
what it is today, and that is great news that ISIS's 
territorial control has rapidly eroded over the last year under 
this administration.
    Here is the bad news. It has not been replaced by things 
that are much better. Al-Nusra, the Al Qaeda affiliate, 
whatever they changed their name to recently, they are still 
around, under pressure, but they are still around. We know that 
Hezbollah now has a very vibrant presence in Syria and 
continues to have one. We know that Assad forces are 
reinvigorated and appear to be victorious in many parts. Of 
course, we have already talked about Iran's presence there both 
directly and indirectly.
    But there also has been a lot of questions, and I think 
Senator Risch asked, what are the motives of these two 
countries?
    Iran's are pretty transparent. They want that Shia arc and, 
more importantly, that land bridge to Lebanon and over to 
Hezbollah, which, by the way, would be a major contributor to 
the next Hezbollah-Israel war, which sadly appears to be a 
question of if, not when, given both the indigenous 
capabilities that Hezbollah has developed and their history in 
the past.
    But on the issue of Russia, I think their motives are 
pretty easy to understand in any setting. You do not have to 
read classified stuff to know that one of the things they seek 
to achieve is to present themselves as a better, more reliable, 
and more predictable regional partner and power-broker than the 
United States. It is an argument they have made to Egypt, 
Libya. We have seen it in Iraq, even in Jordan, even in Turkey, 
which is a NATO member. Even Syrian Democratic Forces have 
been, to some extent, seduced by this promise.
    And I guess my question is, as you look at all of this and 
we talk about it, a fundamental question is, what is our seat 
at the table in Syria? What gives us a seat at the table in any 
future conversation about the future of Syria?
    Ambassador Satterfield. Our presence in a significance 
piece of Syria, our military presence associated with the SDF 
in a critical and very significant piece of Syrian territory is 
a factor.
    Senator Rubio. Hence the problem. And we are grateful that 
you are here today, but hence the problem with this. You just 
said that what gives us a seat at the table in a negotiated 
settlement or some negotiated path forward in Syria is our 
Department of Defense presence, and they are not here today.
    Ambassador Satterfield. In part, Senator. What also----
    Senator Rubio. What is the other part?
    Ambassador Satterfield. The other part is our role in the 
international community. We lead, we shape, we direct, and I 
use those terms advisedly, the likeminded community. And it is 
that leadership----
    Senator Rubio. Like the United Nations?
    Ambassador Satterfield. No. I am speaking of the likeminded 
nations on Syria, some dozens of countries which hold in their 
hands the potential resources to rebuild, reconstruct Syria, 
and who politically hold the power to deny or to grant 
legitimacy for any resolution in Syria.
    Senator Rubio. So our seat at the table is the Department 
of Defense, from whom we did not hear from today on an issue 
where the guys with the guns matter. So that is number one.
    And number two is, our ability to get other nations around 
the world to join us as leverage on the Syrian regime. Okay.
    My other question is, so what is our argument both to those 
within Syria and in the region? What do we say to Saudi Arabia, 
to Egypt, to Turkey, to Jordan, to these countries? What do we 
say to them? What is our argument that the United States is a 
more reliable, more predictable, and more decisive regional 
partner than Vladimir Putin? What do we say to them when we 
reach that test?
    Ambassador Satterfield. It is the United States that 
protects the Emirates, Qatar, Saudi Arabia, the Gulf with our 
systems, with our technicians, with our military personnel 
against the threats which Iran's malign behaviors pose every 
day to many of those states. It is our commitment, not Russian 
importuning, not Russian sales, which determine where a country 
places its strategic confidence and trust where it matters, 
which is defense of their homelands and their interests. And 
that trust, and I would include Egypt as well on this, resides 
squarely with the United States.
    Russia would like to present a different picture. They play 
a weak hand very well, but it is a weak hand. And we should not 
overreact to the fact that, at the end of the day, we are the 
party looked to for fundamental defense, fundamental support, 
not Moscow.
    Senator Rubio. So I know I am out of time. So in closing, 
the core of that argument we make to our regional allies is, we 
sell you weapons systems and we provide, in some cases, basing 
capabilities in your countries.
    Ambassador Satterfield. We help them defend themselves 
against a very real threat in a fashion which no other party 
can.
    Senator Rubio. Through the Department of Defense.
    Ambassador Satterfield. Through the combined efforts of the 
U.S. Government, including the military.
    Senator Rubio. Who is not here today. Thank you.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Ambassador, for being here and giving this 
testimony.
    Very briefly to the chairman's comment about some members 
of this committee being uncomfortable with an increased 
military presence, more involvement in Syria, while also 
raising concerns about a decreased diplomatic presence, I 
think, to many of us, those are two very consistent worries in 
the sense that, to the extent we have additional troops on the 
ground, the worry would be that they are placed at greater risk 
if we are, at the same time, withdrawing from the diplomatic 
and political conversations that are most relevant, that if 
those conversations result in the place becoming more rather 
than less dangerous, and we have thousands of troops on the 
ground, it endangers those troops. And so I think some of us 
can do a better job of trying to marry together those concerns.
    To Senator Rubio's line of questioning, I just do not think 
it is credible to suggest that our seat at the table right now 
comes through any means other than our military presence. We 
have signaled in so many different ways that we are no longer 
interested in being in the lead with respect to the political 
and economic future of Syria, whether it is these diplomatic 
talks that are happening without the United States, or the 
State Department's insistence on a 30 percent cut to the funds 
that they are appropriated to try to do big reconstruction and 
stability deals around the world. I think we have telegraphed 
to the region that we are not going to be a player in the way 
that we have been in the past, diplomatically and politically. 
And thus, our primary leverage there comes through the 
insertion of more and more troops, which continues to beg the 
question as to why we do not have a representative from the 
Department of Defense here.
    In their absence, let me just ask you a question about the 
future disposition of our troops. How do you explain what the 
conditions for the withdrawal of American military presence is 
there? We are in a combat role. We have 2,000 troops in the 
middle of the most dangerous place in the world. Regardless of 
whether they are on the frontline shooting the guns, they are 
in combat, given how close they are to very, very dangerous 
places.
    So what are the conditions by which we bring those troops 
home? Is it the military defeat of ISIS? Is it the withdrawal 
of Iranian and Iranian-backed forces? Is it free elections and 
political stability? How do we communicate to our constituents 
what the endgame is for the U.S. military presence there?
    Ambassador Satterfield. The President, as I noted, is 
committed to remaining in Syria to achieve all of our strategic 
goals there. Now, remaining means in a political, diplomatic, 
military sense, not based on calendars, but based on assessment 
of conditions. The enduring, genuine defeat of ISIS is one of 
those conditions. Stabilization efforts moving forward 
successfully in the north and northeast in that major piece of 
Syria is one of those conditions. And one of them is our 
broader assessment of where the political transition, where the 
Iranian projection of influence in and through Syria, stands.
    There is no specific calculus for this. There is certainly 
not hard, quantitative numbers that can be attached. It is 
something, these conditions, that we will review on a 
progressive basis over the time ahead.
    Senator Murphy. So I would argue that you are operating 
under a flawed premise, which is that there is any future for 
Syria that does not involve a substantial role for Iran. And so 
it worries me that you are telling the committee that our 
military presence in Syria will run until all of our conditions 
are met, including the withdrawal of Iran and Iranian forces.
    Ambassador Satterfield. Senator, what I said is, among the 
assessments we will be making is where broader issues in Syria 
stand.
    Senator Murphy. So what is the functionality of military 
presence vis-a-vis our non-ISIS priorities in Syria?
    Ambassador Satterfield. Senator, that would have to be 
provided in a different setting.
    The Chairman. Well, wait a minute.
    Senator Murphy. Why cannot you----
    The Chairman. Wait a minute. That will not pass muster, I 
am sorry. You can generally state what the purpose of our 
military is beyond ISIS without getting into any kind of 
classified material.
    Ambassador Satterfield. We are deeply concerned with the 
activities of Iran, with the ability of Iran to enhance those 
activities through a greater ability to move materiel into 
Syria. And I would rather leave the discussion at that point.
    Senator Cardin. I would just interject here. The chairman 
did.
    It is hard to understand your response with even the most 
broad use of an AUMF covering anything close to what you are 
saying.
    Ambassador Satterfield. I take your comment, Senator.
    Senator Murphy. I would share those concerns to the extent 
that your answer suggests that the future role of the U.S. 
military in Syria will be aimed at addressing Iranian and 
Iranian-backed military presence there. I think that is an 
important conversation for this committee to have.
    Thank you.
    The Chairman. Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And let me also say that I think that one of the things 
that would have added to this discussion and inquiry that we 
have had here is to have the Department of Defense here. And I 
hope that you will take that back. I know that you and 
Secretary Tillerson and Secretary Mattis have these discussions 
all the time. I think it would be important to have them here 
and have them with the American people.
    Now, in Senator Murphy's question about seeing where the 
end is in this, you talked about, we have to make sure that all 
of our strategic goals are accomplished. Can you tell me what 
those strategic goals are?
    Ambassador Satterfield. They are, first and foremost, the 
enduring defeat, elimination of ISIS as a threat, not just 
today, but into the future.
    Senator Udall. Let me stop you there because I think 
everybody who has discussed this believes that ISIS is going to 
morph into one thing or another over time, and so how does this 
not become an unending war?
    Ambassador Satterfield. Through the next step, which is 
stabilization and a political transformation in Syria, which is 
the only measure that is going to prevent, Senator, exactly 
what you described, the re-emergence under a different name of 
another Sunni Islamist challenge or violent extremist movement.
    Those are the critical goals for Syria, but the goal with 
respect to Iran is the progressive constraint, diminishment of 
Iran's ability to project in and through Syria its malign 
behaviors and influence.
    Senator Udall. Could you explain for us what you believe 
Iran's interests are in Syria, why they are in Syria, and what 
their reasons are for doing what they are doing in Syria?
    Ambassador Satterfield. First and foremost, to have a 
platform from which they can more aggressively and competently 
support in a qualitative fashion Hezbollah and the Hezbollah 
missile challenge, which is both a threat to Israel and also, 
in the Iranian regime's view, a defensive asset for the regime 
in Tehran to build a greater and more permanent presence in 
Syria itself that will endure beyond any transition in regimes, 
so that Iran is in a position to wield influence or threat of 
influence over regional parties outside of Lebanon, Jordan, 
Saudi Arabia. It is a platform for behaviors not confined to 
Lebanon.
    Senator Udall. Shifting in another direction, we have also 
opened up a genie by supporting Kurdish forces in the region. 
Does the State Department or the Pentagon have a plan to ensure 
that arms provided to Kurdish forces do not end up in the hands 
of the Kurdistan Workers' Party or the PKK, a recognized 
terrorist organization?
    Ambassador Satterfield. Yes, Senator. We have been 
extremely attentive to that issue, but I will remind that, at 
the time the Kurdish forces, the SDF, stepped forward as 
partners in this fight, they were the only ones to do so. No 
other state, no other party, despite our offers and 
importuning, were willing to take up this battle. But we fully 
understand and appreciate the issue of the PKK and the 
terrorist threat to Turkey, to others in the region.
    Senator Udall. And how do you expect Turkey to react if 
arms do end up in the hands of the PKK?
    Ambassador Satterfield. I would expect Turkey will make its 
own conclusions with respect to its own defense interests, 
which is why we are as attentive as we are to the issue of 
weapons re-provision to Kurdish and other elements, Arab, 
associated with them in the north.
    Senator Udall. As you are very familiar, President Trump 
recently recognized Jerusalem as the capital of Israel, and 
there are plans to start moving there. This is a very 
contentious issue, again, among all Muslim-majority countries, 
including our ally Jordan. In your opinion, has this decision 
helped or hampered our relationships with countries in the 
region? And how are terrorist organizations in the region using 
this U.S. action to recruit new members?
    Ambassador Satterfield. I believe virtually all of the 
states in the region have made at a formal governmental level 
clear their concerns with this decision, and I would not 
characterize their position beyond the eloquence with which 
they have already presented it.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just a follow-up on the Murphy-Udall questioning, I do 
think we should have a classified briefing to talk more fully 
about what our military may or may not be engaged in.
    Ambassador Satterfield. Absolutely.
    The Chairman. I would say, I do not think you view us as 
not being diplomatically involved, is that correct, in Syria?
    Ambassador Satterfield. Absolutely.
    The Chairman. So I do not think Secretary Tillerson feels 
that either. And so I think any allegations to that end is felt 
differently, at least by the State Department. Maybe people 
think we are not robust enough.
    Ambassador Satterfield. Mr. Chairman, if I may, briefly, on 
this exact point? We are deeply involved diplomatically at 
every level, with every player in this situation. There has 
been no diminution of our engagement or its effectiveness.
    And so, yes, I certainly agree with your conclusions, but I 
would make another statement. You measure efficacy of 
diplomatic performance by the quality of the engagement, not by 
the number of shoes on the ground. That is a lesson learned 
from Iraq during a difficult period. I believe we are quite 
effectively deployed in Syria in terms of our partnering with 
the U.S. military force in the north, as well as our engagement 
with the Jordanians and in Jordan in the discussions that take 
place there, our Vienna channel, Geneva channel, discussions 
with the U.N., with the Russians. This is thoroughly engagement 
of our diplomatic assets around the world.
    Thank you for the opportunity to make that statement.
    The Chairman. Listen, just again to follow up on Senator 
Murphy's line of questioning, we do need to sit down privately 
and talk more fully about what may be contemplated. The Defense 
Department, with all due respect, did give us tremendous 
runaround as it relates to this hearing. The reason that was 
given for them not being here is they had not yet briefed the 
Senate Armed Services Committee nor their counterpart in the 
House, and until they had done so on Syria, they did not feel 
they could come here. But it also may sound like, just based on 
your answers, there is maybe a little contour change in what 
their efforts are on the ground, and I think we need to, 
certainly, hear more fully on that.
    And I would agree that if it is what you said--and I am not 
sure exactly what you said--but if it is what you indicated, 
certainly the authorizations are not there for that kind of 
activity.
    So thank you so much for being here. There will be follow-
up questions hopefully you can answer. Those will come in by 
the close of business. Hopefully, you will answer those 
promptly.
    The Chairman. We thank you for your service to our country 
and your great testimony today.
    Ambassador Satterfield. Thank you, Senator.
    The Chairman. The meeting is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Ambassador David M. Satterfield to Questions 
                 Submitted by Senator Edward J. Markey

    The Trump administration just terminated Temporary Protected Status 
for El Salvador this week, leaving 200,000 beneficiaries stuck between 
going home to a violent country, or staying here illegally. Likewise, 
the TPS designation for Syria is up for review by January 30. This 
affects only 7,000 Syrians, who already live here and who were already 
vetted under the ``strict'' vetting rules set up by Trump's 
administration. The conditions described in Syria show a country that's 
been ravaged by Assad, Russia, Iran, and violent extremists. Even if 
the Assad regime wasn't targeting areas in Idlib and East Ghouta, it is 
impossible to believe that returning TPS holders would not be targeted 
for arrest (or worse) for having fled the country.

    Question. What is the State Department's recommendation in regard 
to TPS for Syrians? Will TPS be extended and re-designated for Syrians 
living in the United States?

    Answer. The Department of Homeland Security (DHS) is consulting 
with the Department of State to determine whether the conditions for 
Syria's TPS designation continue to be met; we do not discuss internal 
and interagency deliberations.
    Under Section 244 of the Immigration and Nationality Act, the DHS 
Secretary has the sole authority to designate, extend, or terminate TPS 
after consultation with ``appropriate agencies'' of the government.

    Question. What is the administration doing to help end the attacks 
on civilians in Syria, and deliver aid to these communities?

    Answer. The war in Syria has devastated the country and 
reverberated far beyond its borders. The images and narratives we see 
and hear from Syrians remind us of the continued suffering of the 
Syrian people under Assad's brutal regime. As a part of our strategy to 
end the seven-year conflict, we are working to de-escalate the violence 
in Syria, provide humanitarian assistance in the country to alleviate 
human suffering, and support U.N.-led efforts in Geneva that lead to a 
political transition as stipulated in U.N. Security Council Resolution 
(UNSCR) 2254.
    On July 9, 2017, the United States, Jordan, and Russia concluded an 
arrangement to reduce violence in southwest Syria. This ceasefire 
effort has largely held, resulting in a significant reduction in 
violence--a necessary condition to increase deliveries of humanitarian 
assistance. In addition to this effort, we continue to press for an end 
to attacks on civilians by the Syrian regime and its allies. In our 
engagements with Russia, we condemn the Assad regime's horrific tactics 
and Russia's own role as a supporter of the regime. This includes in 
besieged areas such as East Ghouta. We have continually messaged to the 
regime and the Russians that unhindered humanitarian assistance, 
including immediate medical evacuations, must be provided to all 
besieged areas, including from Eastern Ghouta in which there are no 
fewer than 500 patients in critical need who will likely die if not 
evacuated.
    The United States is the largest single country donor of 
humanitarian assistance for the Syria crisis. The U.S. has provided 
nearly $7.5 billion for those displaced inside Syria and the region 
since the beginning of the crisis. This assistance is helping more than 
four million Syrians every month across all 14 governorates, as well as 
the millions affected by the conflict in neighboring countries. In 
addition to needs-based humanitarian assistance, the USG is providing 
stabilization assistance in non-regime held areas, including in 
liberated areas, to allow the voluntary return of displaced Syrians and 
serve as a counterweight against extremism. The United States also has 
provided more than $32 million to the Syrian Civil Defense (SCD), also 
known as the White Helmets, an impartial group of volunteer emergency 
responders who provide lifesaving support to civilians and help 
document chemical attacks by the regime and airstrikes by its Russian 
allies. To date, these teams of SCD volunteers have saved over 99,000 
lives. The SCD continues to serve as a vital organization that 
enshrines the values of nonviolence, impartiality, and 
nondiscrimination in its principles. The international community must 
vigorously continue to pressure the regime and Russia to support 
unhindered humanitarian access to all of Syria and pressure the Assad 
regime to credibly negotiate a lasting political resolution to the 
conflict through the Geneva process in accordance with UNSCR 2254.
    The U.N.-led Geneva process under UNSCR 2254 is the only credible 
way forward to achieve U.N.-supervised presidential and parliamentary 
elections involving all Syrians and constitutional reform, as jointly 
acknowledged in November of last year by President Trump and Russian 
President Putin in Vietnam. The United States is deeply engaged in this 
process and its goal to produce a political solution to this conflict 
in Syria. Implementation requires that all parties--including Russia--
support the U.N. process fully and exclusively.
    In Syria, we are working to defeat ISIS, de-escalate violence, and 
support a political resolution through U.N.-led talks. In doing so, we 
seek to end the violence and alleviate the suffering of the Syrian 
people. The Syrian people deserve an end to this conflict.
                               __________

        Letter to Hon. Rex Tillerson and Hon. James Mattis from 
                           Senator Tim Kaine
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
